February 26, 2009

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS


SUBJECT: Audit Report – Follow-Up Audit on the Timeliness of Mail Processing and
         Delivery Operations in the Chicago District
         (Report Number NO-AR-09-005)

This report focuses on significant issues identified during our separate reviews
conducted in fiscal years (FY) 2007 and 2008 on the timeliness of mail processing and
delivery operations in the Chicago District located in the Great Lakes Area (Project
Number 09XU002NO000). We performed this audit in response to your request. Our
objectives were to follow up on issues found in previous reviews and provide a progress
report on conditions through FY 2008. See Appendix A for additional information about
this audit.

Conclusion

We concluded the Chicago District made improvements during FY 2008 in the timely
and efficient processing and delivery of mail, resulting in fewer mail delays, service
improvements, and reduction in customer complaints. In fact, service scores improved
in all four categories in FY 2008 compared to the same period in FY 2007. However,
the Chicago District ranked below the national average in three of the four measured
service categories for First-Class Mail®.

Delayed Mail Trends

The Chicago District made noticeable improvements in the timely processing of mail.
Total delayed mail at the Cardiss Collins Processing and Distribution Center (P&DC)
decreased from 404 million pieces in FY 2007 to 52 million pieces in FY 2008 — an 87
percent decrease. Delivery units delayed mail as a percentage of total volume also
decreased from .53 percent in FY 2007 to .32 percent in FY 2008.

The largest percentage of delayed mail continued to be Standard Mail®, but in FY 2008,
the Chicago District delayed only 6 percent of Standard Mail, compared to 45 percent in
FY 2007. See Appendix B for our detailed analysis of this issue.
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                          NO-AR-09-005
 in the Chicago District


Comparison to Similar-Sized Sites

We compared the Cardiss Collins P&DC to similar-sized sites and found that the
Cardiss Collins P&DC delayed a smaller percentage of mail in FY 2008, compared to
FY 2007. In FY 2007, the Cardiss Collins P&DC delayed almost 24 percent of mail
volume, compared to similar-sized mail processing facilities’ average of over 3 percent.
By the end of FY 2008, the Cardiss Collins P&DC delayed only 3 percent of mail
volume, compared to similar-sized mail processing facilities’ average of 2 percent.

Compared to other Group 11 sites, in FY 2008, the Cardiss Collins P&DC had similar
percentages of delayed First-Class Mail and slightly higher percentages of Periodicals®,
Package Service® mail and Standard Mail. In particular, opportunities still exist for
improvement in the processing of Standard Mail. We made a recommendation to
address this issue in our prior report.2 The Cardiss Collins P&DC delayed almost 6
percent of Standard Mail compared to the Group 1 average of almost 4 percent.
Management has on-going action plans to improve mail timeliness. See Appendix C for
our detailed analysis of this comparison.

Mail Processing and Delivery Capacity

The Chicago District began to improve mail processing and delivery capacity in
FY 2008. We concluded the Cardiss Collins P&DC had sufficient automated equipment
capacity to process its workload. In addition, the Chicago District used more carriers
than the national average, based on the number of routes, indicating that a sufficient
carrier workforce also existed. See Appendix D for our detailed analysis of this issue.

Mail Processing and Delivery Efficiency

The Postal Service has begun to improve efficiency at the Cardiss Collins P&DC by
reducing 563,754 workhours from FY 2006 to 2008. The Cardiss Collins P&DC has
made improvements in meeting outgoing mail clearance times, the national average for
sorting letter mail into delivery sequence order, and the national productivity average for
Delivery Barcode Sorters (DBCS). In addition, we concluded improved office efficiency
and street management have increased the Chicago District’s ability to deliver mail
before 6:00 p.m. See Appendix E for our detailed analysis of this issue.

Internal Controls

Generally, the internal controls we reviewed concerning the timely processing and
delivery of mail were functioning as intended. See Appendix F for our detailed analysis
of this issue.

1
  The Cardiss Collins P&DC is a Group 1 processing facility. A Group 1 facility processes the largest amount of
volume compared to other P&DCs.
2
  Summary Audit on the Timeliness of Mail Processing, Transportation, and Delivery Operations in the Chicago
District (Report Number NO-AR-08-003, dated March 28, 2008)




                                                         2
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations         NO-AR-09-005
 in the Chicago District



Criteria

Title 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal Service “. . .
shall provide prompt, reliable, and efficient services to patrons in all areas . .
. .” Further, the December 2007 Postal Service Strategic Transformation
Plan states “The Postal Service will continue to provide timely, reliable
delivery to every address at reasonable rates.” Finally, the Postal
Accountability Enhancement Act, P.L. 109-435-December 20, 2006, Title II,
highlights “. . .the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality,
affordable postal services. . . .”

Effects

Reduction in mail processing and delivery delays in the Chicago District positively
affected service scores in FY 2008. For example, service scores improved in all four
mail categories in FY 2008 compared to the same period in FY 2007. However, the
Chicago District ranked below the national average in three of four measured First-
Class Mail categories, indicating the need for continued management attention. The
Chicago District ranked 76th out of 79 districts in overnight performance, although the
score improved to over 95 percent on time by the end of FY 2008. (See Appendix G.)

Management’s efforts to reduce mail delays resulted in better customer service and,
ultimately, led to a decrease in customer complaints. The average number of
complaints per month totaled 142 in FY 2008, compared to 267 in FY 2007, a decrease
of over 46 percent.

Causes

Based on our prior work, we concluded the following factors contributed to the Chicago
District’s inability to process and deliver mail in a timely manner.

    •   Mail processing supervision, accountability, and planning were inadequate.
        There was significant management turnover and mail processing supervisors did
        not adequately maintain automated equipment or adjust workhours to changes in
        workload.

    •   Management did not always adequately supervise delivery employees,
        implement delivery standard operating procedures, perform route inspections, or
        ensure the accuracy of the Address Management System (AMS).

Consequently, in the prior reports, we made recommendations to the Vice President,
Great Lakes Area Operations; the District Manager/Postmaster, Chicago District; and
the Senior Plant Manager, Cardiss Collins P&DC. Management generally agreed with




                                                    3
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


the findings in these reports and has taken, or is taking, corrective action on our
recommendations. See Appendix H and the Prior Audit Coverage section of Appendix
A for information about, and in particular recommendations made in, these prior reports.

Management Actions

Based on our follow-up work, we found that the Chicago District continues to streamline
delivery and processing operations to improve service scores and ensure the timely
processing of mail. Management has numerous initiatives in place or planned to
improve mail timeliness. Management has begun to adjust carrier routes to match the
workload and improve supervision of carrier office and street time. In addition, the
accuracy of the AMS increased. Management turnover decreased, communication of
goals and targets increased and maintenance of automated equipment improved.
These actions should increase capacity and efficiency and allow the Chicago District to
continue to process and deliver more mail in less time. In addition, the Postal Service
has begun to improve efficiency at the Cardiss Collins P&DC by reducing 563,754
workhours from FY 2006 to 2008.

We made no new recommendations in this report because management has been
responsive to prior recommendations and their actions to date have produced favorable
results. Management reviewed a draft of this report and agreed with its contents and
conclusions. See Appendix I for management’s comments, in their entirety.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:    Patrick R. Donahoe
       William P. Galligan
       Anthony M. Pajunas
       Katherine S. Banks




                                                    4
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                    NO-AR-09-005
 in the Chicago District



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Chicago District serves ZIP Code areas 606 through 608 and covers over
255 square miles. It serves a population of over 3 million and employs approximately
9,000 employees. The Chicago District is located in the Great Lakes Area. The map
below shows the Great Lakes Area Districts by three-digit ZIP Code.

                    Great Lakes Area
                    Customer Service Districts
                                           Lakeland
                                    498-499,530-532,534,535,
                                      537-539,541-545,549
                                                                       Greater Michigan
                                                                       486-491, 493-497



                                                                           Southeast Michigan
                                                                              480,483-485
                                             Chicago
                                             606-608


                                       Northern Illinois
                                       600-603, 610,611
                                                                          Detroit
                             Central Illinois                          481,482, 492
                      604,605,609,613-619,625-627




                           Gateway                                    Greater Indiana
                     620,622-624,628-631,                          460-469,472-475,478,479
                       633-635,650-653




The Cardiss Collins P&DC opened in April 1996 and covers over 1.7 million square feet.
It is the 30th largest mail processing plant in the postal network’s 273 plants.

In December 2006, the Chicago District began receiving negative media coverage
about mail delays. This negative media attention expanded during FY 2007 and elected
representatives requested the U.S. Postal Service to take immediate corrective action.
Subsequently, the Postal Service committed considerable resources to correct delayed
mail problems. In FY 2007, the Postal Service expended approximately $6.6 million in
correcting the delayed mail problems. In addition, the Postmaster General and Chief
Executive Officer made a commitment to resolve delayed mail problems in the Chicago
District and requested the U.S. Postal Service Office of Inspector General (OIG) to
review the situation.




                                                               5
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                NO-AR-09-005
 in the Chicago District


OBJECTIVES, SCOPE, AND METHODOLOGY

This report focuses on significant issues identified during our separate reviews
conducted in FYs 2007 and 2008 on the timeliness of mail processing and delivery
operations in the Chicago District (Project Number 07XG034NO000). We conducted
these reviews based on requests from the Postmaster General and Chief Executive
Officer and Congress. The objectives of this audit were to follow up on issues found in
the previous reviews, and provide a progress report on conditions through FY 2008. To
accomplish the objectives, we reviewed selected processing and delivery operations;
conducted interviews and observations; and analyzed mail volume, workhours,
productivity, service scores, and delayed mail trends. We did not review transportation
operations as there were no significant transportation issues identified in prior reports.

We used computer-processed data from the National Work Hour Reporting System;
Web Enterprise Information System; Web End-of-Run System; Web Mail Condition
Reporting System; Management Operating Data System (MODS); Origin-Destination
Information System; Service Issue Record System; Revenue, Pieces, and Weight
System; Web Complement Information System; Delivery Operations Information
System; Address Management System; and the Enterprise Data Warehouse. We did
not test controls over these systems. However, we checked the reasonableness of
results by confirming our analyses and results with Postal Service managers and
multiple data sources. In addition, an OIG review of MODS concluded that the data in
this system was valid and reliable for the uses for which it is intended.3

We conducted this performance audit from November 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on January 14, 2009, and included
their comments where appropriate.




3
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                      6
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                NO-AR-09-005
 in the Chicago District


PRIOR AUDIT COVERAGE

                                         Final
                          Report        Report           Monetary
   Report Title           Number         Date             Impact               Audit Results
                                                                        The Chicago District made
                                                                        noticeable improvements at
Summary Audit on
                                                                        the end of FY 2007 but
the Timeliness of Mail                                   $231,337,397
                                                                        continues to have difficulty
Processing,               NO-AR-08-     March 28,            plus
                                                                        with the timely and efficient
Transportation, and          003          2008            $2,924,682
                                                                        processing and delivery of
Delivery Operations                                      Non-Monetary
                                                                        mail, resulting in mail delays,
in the Chicago District
                                                                        service degradation, and
                                                                        customer complaints.
Timeliness of Mail                                                      The Cardiss Collins P&DC
Processing at the                                                       continues to have difficulty
Chicago, Illinois         NO-AR-07-    September                        with the timely processing of
                                                             N/A
Cardiss Collins              012        28, 2007                        mail, resulting in untimely
Processing and                                                          mail delivery and service
Distribution Center                                                     degradation.
                                                                        Neither local transportation
                                                                        nor nationwide network
Impact of
                                                                        transportation issues were
Transportation on         NL-AR-07-    September
                                                             N/A        “root causes” or significant
Chicago District             008        28, 2007
                                                                        contributors to current
Performance
                                                                        Chicago District performance
                                                                        challenges.
                                                                        During the period September
                                                                        2006 to June 2007, the
                                                                        Chicago District had difficulty
                                                                        with timely mail delivery.
                                                                        Specifically, delivery
                                                                        performance indicators
                                                                        showed office performance
Timely City Delivery –    DR-AR-08-    October 11,                      was well below standards,
                                                             N/A
Chicago District             001          2007                          street performance was at an
                                                                        all time low, delayed mailed
                                                                        volume had increased
                                                                        dramatically, and the
                                                                        percentage of mail arriving in
                                                                        delivery sequence at the units
                                                                        was much lower than the
                                                                        national average.




                                                     7
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                     NO-AR-09-005
 in the Chicago District


                                 APPENDIX B: DELAYED MAIL TRENDS

The Chicago District made noticeable improvements during FY 2008 in the timely
processing and delivery of mail. Specifically, the Cardiss Collins P&DC reduced the
amount of delayed mail from FY 2007 to 2008 by 87 percent (from 404 million pieces in
FY 2007 to 52 million pieces in FY 2008.) Comparing FY 2007 to 2008, delayed First-
Class Mail decreased almost 96 percent, delayed Periodicals decreased almost 82
percent, delayed Standard Mail decreased almost 87 percent, and delayed Package
Service mail decreased almost 96 percent. See the table below.

          CARDISS COLLINS P&DC DELAYED MAIL TRENDS — FY 2006 TO 2008

                                                                                     Delayed
                  Delayed         Delayed            Delayed           Delayed       Package         Total
                  Priority      First-Class        Periodicals        Standard       Services    Delayed Mail
FY 2006            22,670        21,149,788         2,177,017        113,921,659    1,494,090    138,765,224
FY 2007               0          21,229,737         3,148,000        377,665,070    1,689,523    403,732,330
FY 2008               0           933,000            569,000         50,000,358       71,000      51,573,358
  Piece           -22,670       -20,216,788        -1,608,017        -63,921,301    -1,423,090   -87,191,866
 Change
FYs 2006
 to 2008
 Percent           -100%          -95.59%            -73.86%            -56.11%      -95.25%       -62.83%
 Change
FYs 2006
 to 2008
  Piece               0         -20,296,737        -2,579,000        -327,664,712   -1,618,523   -352,158,972
 Change
FYs 2007
 to 2008
 Percent             N/A          -95.61%            -81.93%            -86.76%      -95.80%       -87.23%
 Change
FYs 2007
 to 2008

Our analysis showed the majority of delayed mail was Standard Mail,4 accounting for
approximately 96 percent of total delayed mail in FY 2008. The Chicago District needs
to continue to improve processing this mail in a timely manner.




4
    Standard Mail consists of printed matter, flyers, advertising, and catalogs.




                                                              8
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


During our observations, we noted that the workroom floor was generally clear of
delayed mail, as shown in Illustration 1 below.

Illustration 1: Chicago Workroom Floor Was Generally Clear of Delayed Mail,
November 2 through 6, 2008.




Similarly, the comparison of delayed mail as a percentage of total mail volume showed
that in FY 2008, delays decreased considerably and the Cardiss Collins P&DC delayed
3 percent of mail volume compared to 24 percent of delayed mail in FY 2007.

Delayed mail also decreased in the Chicago District delivery units, from 11.3 million
pieces in FY 2007 to 6.5 million pieces in FY 2008 — a 42 percent decrease. Delivery
units’ delayed mail, on the other hand, increased from 1.2 million to 11.3 million pieces
from FY 2006 to 2007. This increase in delayed mail was primarily the result of Great
Lakes Area and Chicago District efforts to improve the accurate and complete reporting




                                                    9
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations     NO-AR-09-005
 in the Chicago District


of delivery delayed mail. Nevertheless, the amount of delivery delayed mail only
represented less than 1 percent of total delivery volume in both years, indicating that the
majority of delays occurred at the Cardiss Collins P&DC. See the charts below.

          DELAYED MAIL PIECES AT CHICAGO DISTRICT DELIVERY UNITS

                                               Delayed Mail Pieces at Chicago
                    Fiscal Year
                                                    District Delivery Units
                      2006                                 1,150,824
                      2007                                11,336,108
                      2008                                 6,538,350
                                  Percentage Change
                FY 2006 – FY 2007                             885
                FY 2007 – FY 2008                             -42


 DELIVERY DELAYED VOLUME AS A PERCENT OF TOTAL DELIVERED VOLUME
                        CHICAGO DISTRICT

                            Fiscal Year                             Percentage
                               2006                                    0.06
                               2007                                    0.53
                               2008                                    0.32




                                                   10
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations             NO-AR-09-005
 in the Chicago District


            APPENDIX C: COMPARISONS TO SIMILAR-SIZED FACILITIES

We compared the Cardiss Collins P&DC to similar-sized sites, and found that the
Cardiss Collins P&DC delayed a smaller percentage of mail in FY 2008, compared to
FY 2007. The chart below compares total delayed mail in the Cardiss Collins P&DC to
the average for Group 1 sites for FY 2006 through 2008. The Cardiss Collins P&DC
improved the timely processing of mail in FY 2008.

                              PERCENTAGE OF DELAYED MAIL

                    Cardiss Collins P&DC Compared to Group 1 Sites
                        FY 2006               FY 2007               FY 2008
                  Cardiss    Group 1    Cardiss    Group 1   Cardiss     Group 1
                  Collins     Sites     Collins     Sites     Collins     Sites
                   P&DC     (Average)    P&DC     (Average)   P&DC      (Average)
Percentage
Delayed to
                    9.23           4.10           23.75           3.21         2.94         2.03
   Total
 Volume

In FY 2008, the Cardiss Collins P&DC had similar amounts of delayed First Class Mail,
and slightly higher percentages of Periodicals and Package Services mail than other
Group 1 sites. Additional opportunities exist for improvement in the processing of
Standard Mail, as we addressed in a prior report recommendation. For example, in FY
2008, the Cardiss Collins P&DC delayed almost 6 percent of Standard Mail, compared
to the Group 1 site average of approximately 4 percent. However, compared to the 45
percent delayed in FY 2007, the Chicago District made significant improvement in the
timely delivery of Standard Mail. See the chart below.

       CARDISS COLLINS P&DC PERCENTAGE OF DELAYED MAIL TRENDS
                 COMPARED TO GROUP 1 AVERAGE FY 2008

                                     FY 2007                                   FY 2008
  Percentage            Cardiss                Group 1             Cardiss             Group 1
    Delayed           Collins P&DC            (Average)          Collins P&DC         (Average)
  First-Class              2.73                  0.35                 0.12              0.18
    Priority               0.00                  0.49                 0.00              0.28
  Periodicals              4.42                 10.21                 0.78              3.74
   Standard               45.05                  5.33                 5.79              3.64
   Packages               17.94                  0.29                 0.73              0.10
     Total                23.71                  3.20                 2.94              2.03




                                                   11
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations             NO-AR-09-005
 in the Chicago District


            APPENDIX D: MAIL PROCESSING AND DELIVERY CAPACITY

Mail Processing Capacity

As part of management actions to improve mail processing capacity at the Cardiss
Collins P&DC, DBCS and Automated Flat Sorting Machines (AFSM) 100 were
overhauled and an improved preventive maintenance program was implemented.
Consequently, the Cardiss Collins P&DC increased the throughput rate on the DBCS
from FY 2007 to 2008 and had a higher throughput rate than the national average. This
throughput rate increase may be due, in part, to a 16 percent decrease in the number of
machine jams, although the Cardiss Collins P&DC’s jam rate was still higher than the
national average. These improvements will increase the Cardiss Collins P&DC’s ability
to process letter mail timely. See the chart below.

         DBCS AVERAGE THROUGHPUT AND JAMS — FYs 2007 AND 2008

                                                                       FY        FY
                       2007           2008          Percentage       2007      2008    Percentage
      DBCS           Average        Average        Change from       Jams      Jams   Change from
                    Throughput     Throughput      2007 to 2008       per       per   2007 to 2008
                                                                      10K       10K
     Cardiss
                       35,536         38,347            7.91          4.37     3.66      16.25
  Collins P&DC
     National
                       37,047         37,379            0.89          2.66     2.18      18.05
     Average
    Difference
  from National        -1,512          968                            1.71     1.48
     Average

Although the Cardiss Collins P&DC improved the AFSM 100 throughput rate from
FY 2007 to 2008 by 9 percent, this rate was still lower than the national average. In
addition, the Cardiss Collins P&DC reduced the number of jams per 10,000 pieces on
the AFSM 100 from FY 2007 to 2008 by 13 percent, although the number of jams was
higher than the national average. Improving throughput and reducing the number of
jams will increase the Cardiss Collins P&DC’s ability to process flat mail timely. See the
chart on the next page.




                                                   12
   Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations               NO-AR-09-005
    in the Chicago District



          AFSM 100 AVERAGE THROUGHPUT AND JAMS — FYs 2007 AND 2008

                         2007           2008          Percentage       FY 2007    FY 2008       Percentage
       AFSM100         Average        Average        Change from        Jams       Jams        Change from
                      Throughput     Throughput      2007 to 2008      per 10K    per 10K      2007 to 2008
       Cardiss
       Collins           12,947         14,064             8.63          39.34        34.15       -13.19
        P&DC
       National
                         14,628         14,875             1.69          27.27        26.65        -2.27
       Average
      Difference
         from
                         -1,681          -811                            12.07        7.50
       National
       Average

   We found that the Cardiss Collins P&DC had additional automated equipment capacity.
   The chart below shows the performance achievement for the four major automated
   equipment types used at the Cardiss Collins P&DC during FY 2008. For example, the
   DBCS and AFSM performed at approximately 76 and 69 percent efficiency,
   respectively, based on target productivity levels during FY 2008. By improving
   efficiency to target productivity, the Cardiss Collins P&DC could process additional mail
   volume - an estimated 985 million additional pieces on the DBCS and 87 million
   additional pieces on the AFSM 100.

   SELECTED AUTOMATED EQUIPMENT CAPACITY AT CARDISS COLLINS P&DC FY 2008

               Target      Chicago                                                       FY 2008
Automated                            Chicago           Potential         Actual                       Additional
              Produc-      Produc-                                                     Performance
Equipment                           Workhours          Volume            Volume                       Capacity
                tivity       tivity                                                    Achievement
  DBCS         10,730       8,135    379,430         4,071,176,139    3,086,575,644         76       984,600,495
  SPBS*          366         217      35,973          13,166,283        7,815,215           59        5,351,068
AFSM 100        3682        2,556     77,699          286,086,687      198,628,536          69        87,458,151
FSM** 1000       744         217      58,950          43,872,382       19,122,873           44       24,749,509

   *SPBS (Small Parcel Bundle Sorter)
   **FSM (Flat Sorting Machine)

   We concluded the Cardiss Collins P&DC used more workhours to process its workload
   than similar size sites did. In FY 2008, the Cardiss Collins P&DC processed 1.75 billion
   pieces of mail compared to the Group 1 site average of 1.8 billion pieces, yet used
   almost 2.6 million workhours compared to the Group 1 site average of 2.3 million
   workhours. These comparisons show that the Cardiss Collins P&DC processed less
   mail volume but used more workhours than similar sites, indicating that an excessive
   amount of workhours were used relative to the workload.




                                                      13
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                             NO-AR-09-005
 in the Chicago District


Delivery Capacity

The Chicago District had a sufficient number of carriers to deliver the mail, based on the
carrier to route ratio.5 The carrier to route ratio for September 2008 for the Chicago
District was 1.35, while the national average for the same period was 1.31.

We also noted the number of carrier routes in the Chicago District increased slightly
(0.5 percent) from FY 2007 to 2008. Nationally, the number of carrier routes decreased
by 0.2 percent from FY 2007 to 2008, possibly because of increases in the amount of
Delivery Point Sequencing (DPS) mail6 and the resulting adjustments to routes. See
the charts below.

                           NUMBER OF CARRIER ROUTES
           Fiscal Year            Chicago District               National
              2006                      2,465                     157,787
              2007                      2,500                     158,052
              2008                      2,513                     157,805
                  Percentage Changes in the Number of Carrier Routes
           2006-2007                     1.4                         0.2
           2007-2008                     0.5                        -0.2

In addition, the Chicago District routes had fewer possible deliveries per route than the
average of the other five major metro districts.7 In FY 2008, the Chicago District
averaged 488 deliveries per route, compared to the Major Metro District average of 500.




5
  The number of carriers divided by the number of routes. A higher than a one-to-one ratio is necessary to staff the
routes for a 6-day work week and provide for carrier absences.
6
  DPS mail does not require the carrier to process this mail in the office and should result in fewer carrier workhours.
The Chicago District processed less DPS mail than the national average. (See Appendix E.)
7
  The Major Metro Districts are: Philadelphia, New York, Capital Metro, San Francisco, Los Angeles and Chicago.




                                                           14
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District



These comparisons indicate the Chicago District has a sufficient carrier workforce.
Management has begun to adjust carrier routes, which will help to ensure individual
carrier workloads are appropriate.

In addition, the Chicago District’s delivery capacity continued to improve as was evident
by the number of carriers returning by 6:00 p.m. For example, during FY 2007, 80
percent of Chicago District carriers returned before 6:00 p.m. compared to the national
average of 89 percent. In FY 2008, 92 percent of Chicago District returned before 6:00
p.m. compared to the national average of 96 percent. Consequently, the Chicago
District delivered more mail before 6:00 p.m. than in the past. See the chart and
photograph below.

           CARRIERS RETURNING BEFORE 6:00 P.M. CHICAGO DISTRICT
             COMPARED TO NATIONAL AVERAGE FYs 2004 TO 2008


        100%
         95%
         90%
         85%
         80%
         75%
         70%
         65%
         60%
              06




              07


              07


              07


              07


              07




              08


              08


              08


              08


              08
               6




               7
             00




             00
            20




            20


            20


            20




            20




            20


            20


            20


            20


            20
            20
           /2




           /2
          2/




          2/


          2/


          2/


          2/


          2/




          2/


          2/


          2/


          2/


          2/
         /2




         /2
        9/




        1/


        3/


        5/


        7/


        9/




        1/


        3/


        5/


        7/


        9/
       11




       11




                                              Chicago District    National




                                                    15
Follow-Up Audit on the Timeliness of Mail Processing and Delivery          NO-AR-09-005
 in the Chicago District




Illustration 3: On November 5, 2008, carriers at the Chicago Central Annex returned
before 6:00 p.m.




                                                    16
Follow-Up Audit on the Timeliness of Mail Processing and Delivery                                NO-AR-09-005
 in the Chicago District


              APPENDIX E: DETAILED ANALYSIS OF MAIL PROCESSING
                           AND DELIVERY EFFICIENCY

Mail Processing Efficiency

The Cardiss Collins P&DC’s productivity has historically been below the average of the
36 Group 1 sites, although productivity increased from FY 2005 to 2008. See the table
and chart below.8

             FIRST HANDLED PIECE (FHP) PRODUCTIVITY COMPARISONS

                                                            Average Group 1
                               Cardiss Collins
                                                            FHP Productivity            Cardiss Collins
     Fiscal Year                 P&DC FHP
                                                           (Excluding Cardiss           P&DC Ranking
                                Productivity
                                                             Collins P&DC)
         2005                          442                         698                          35th
         2006                          469                         708                          35th
         2007                          570                         744                          33rd
         2008                          664                         809                          32nd




8
  We computed FHP productivity by dividing FHP volume by workhours for all Group 1 sites. The average does not
include the Cardiss Collins P&DC data.




                                                      17
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations              NO-AR-09-005
 in the Chicago District


                                      FY 2008 GROUP 1 FHP
                                         PRODUCTIVITY

  Pieces/Workhour

     1400



     1200



     1000

                                                                        Cardiss Collins
                                                                            P&DC
     800
                                                                             664


     600



     400



     200



       0




From FY 2006 to 2008, the Cardiss Collins P&DC had an increase in FHP volume of
16.7 percent and a decrease in workhours of 563,754, or 17.59 percent. Consequently,
productivity increased by 41.61 percent. In addition, we found the Cardiss Collins
P&DC made improvements in meeting outgoing mail clearance times, the national
average for sorting letter mail into delivery sequence order, and the national productivity
average for DBCS.

Outgoing Clearance Times

During FY 2007, the Cardiss Collins P&DC met its 11:00 p.m. outgoing clearance target
approximately 89 percent of the time, which was significantly below the national
average of 94 percent. Outgoing mail cleared by 11:00 p.m. improved in FY 2008 to
92 percent, while the national rate was 95 percent. By September 2008, Chicago rate
of clearance was 93 percent, while the national rate was 94 percent. This improvement
should reduce mail delays and enhance service scores. See the chart on the next
page.




                                                   18
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


                      OUTGOING MAIL CLEARED BY 11:00 P.M. —
                      NATIONAL VERSUS CARDISS COLLINS P&DC
                             SEPTEMBER 2006 TO 2008

    100%

     95%

     90%

     85%

     80%

     75%

     70%

     65%

     60%
     /2 6

     /2 6

     /2 6
    1 / 06

    2 / 07
    3/ 007

    4 / 07

    5 / 07

    6 / 07

    7 / 07

    8 / 07

    9 / 07

     /2 7

     /2 7

     /2 7
    1 / 07

    2 / 08

    3/ 008

    4 / 08

    5 / 08

    6 / 08

    7 / 08

    8 / 08

    9 / 08
            08
   10 00

   11 00

   12 00




   10 00

   11 00

   12 00
         20



         20

         20

         20

         20

         20

         20




         20



         20

         20

         20

         20

         20

         20

         20
          0




          0
         2
        /2

        /2

        /2



         2




         2
        /2

        /2

        /2



         2
       2/




       2/

       2/

       2/

       2/

       2/

       2/

       2/

       2/

       2/




       2/

       2/

       2/

       2/

       2/

       2/

       2/

       2/

       2/
    9/




                                               National    Cardiss Collins



Delivery Point Sequencing

The Cardiss Collins P&DC consistently ranked below the national average for letters
sorted in DPS. During FYs 2006 and 2007, the Cardiss Collins P&DC processed on
average 69 and 72 percent, respectively, of the letter mail in DPS. Although the
percentage of DPS mail increased during FY 2008 to 79 percent, the percentage
continues to be well below the national average of over 87 percent. Consequently,
Chicago District mail carriers cased more non-DPS mail than their counterparts did
nationally, resulting in increased office time and possible mail delays. See the chart on
the next page.




                                                    19
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                          NO-AR-09-005
 in the Chicago District


                        PERCENTAGE OF DELIVERY POINT SEQUENCING —
                           NATIONAL VERSUS CARDISS COLLINS P&DC
                                      FYs 2006 TO 2008

                  90%

                                                                                   87.5%

                  85%


                                                    82.8%
                  80%
                        79.7%                                                      78.8%
    Percent DPS




                                                                                                       Chicago District
                  75%
                                                                                                       National


                                                    71.8%
                  70%

                         69.1%


                  65%




                  60%
                         FY 2006                  FY 2007                      FY 2008




DBCS Productivity

DBCS productivity at the Cardiss Collins P&DC improved during FY 2008, as did its
ranking among Group 1 sites, due to overhaul of the machines. In FY 2007, the Cardiss
Collins P&DC processed 7,409 pieces per hour on a DBCS, compared to the national
average of 7,767 pieces. In FY 2008, the Cardiss Collins P&DC processed 8,135
pieces per hour on a DBCS and ranked sixth in DBCS productivity among the Group 1
sites. In addition, during FY 2008, the Cardiss Collins P&DC received an award for
DBCS auto certification.9 See the chart and photograph on the next page.




9
 Improving DBCS productivity will increase the Cardiss Collins P&DC’s ability to sort mail in DPS and process letter
mail within the operational window.




                                                            20
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


         BREAKTHROUGH PRODUCTIVITY INDEX PERFORMANCE FOR DBCS —
                      CARDISS COLLINS P&DC, FY 2008
  10,000
                   Cardiss Collins, 8,135
   9,000

   8,000

   7,000

   6,000

   5,000

   4,000

   3,000

   2,000

   1,000

     -




  Illustration 3: During FY 2008, the Cardiss Collins P&DC received an award for
                              DBCS Auto Certification.




                                                   21
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                         NO-AR-09-005
 in the Chicago District



Delivery Efficiency

The Chicago District improved efficiencies both in the office and on the street which
should allow it to deliver mail in a more timely manner. As noted in Appendix D,
although the Chicago District delivered more mail before 6:00 p.m. than in the past,
Chicago District carrier return times were below the national average in FY 2008.

We found that improving office efficiency allowed carriers additional street time to
complete delivery by 6:00 p.m. For example, the Chicago District’s Office Efficiency
Index (OEI)10 improved from FY 2007 to 2008, although the index has been well below
the national average since FY 2006. Consequently, the Chicago District city carriers
used more time in the office than necessary, but that amount of time is declining. See
the chart below.

                                      OFFICE EFFICIENCY INDEX

                                                                                              Percentage
         Fiscal Year              Chicago District                    National
                                                                                              Difference
              2006                        145.5                         192.4                       -27.0
              2007                        149.2                         201.7                       -26.0
              2008                        164.8                         225.7                       -24.4


Improving street efficiency also increased the Chicago District’s opportunities to deliver
mail before 6:00 p.m. The Street Efficiency Index (SEI)11 for the Chicago District
improved slightly from FY 2007 to 2008, although it was 4.4 percent below the national
average in FY 2008. See the chart below.

                                      STREET EFFICIENCY INDEX

                                                                                       Percentage
          Fiscal Year            Chicago District                  National
                                                                                       Difference

               2006                       91.3                        93.6                   -2.4
               2007                       90.1                        93.4                   -3.5
               2008                       90.2                        94.1                   -4.4


10
   The Postal Service uses the OEI to measure office performance. OEI is calculated by dividing the possible
                               0
deliveries by the office time.
11
   The Postal Service uses the SEI to measure street performance. SEI is calculated by dividing the possible
deliveries by the street time.




                                                        22
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations          NO-AR-09-005
 in the Chicago District




In addition, we found that carrier productivity as measured by deliveries per hour (DPH)
in the Chicago District improved from FY 2007 to 2008. The DPH was 55 deliveries per
hour in FY 2008, which was 14 percent lower than the national average of 64. See the
chart below.

                                     DELIVERIES PER HOUR

   Fiscal Year            Chicago District              National         Percentage Difference
      2006                      53                        60                      -13
      2007                      53                        61                      -14
      2008                      55                        64                      -14




                                                   23
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                       NO-AR-09-005
 in the Chicago District



             APPENDIX F: DETAILED ANALYSIS OF INTERNAL CONTROLS

Generally, the internal controls we reviewed concerning the timely processing and
delivery of mail were functioning as intended.

     •   In June 2008, the Postal Service revised the National Color Code policy. During
         our review in November 2008, we found that the Cardiss Collins P&DC had
         implemented the new policy. Improved color-coding will allow the Cardiss Collins
         P&DC to prioritize its workload and ensure first-in, first-out mail processing. We
         also noted during our observations on November 3 and 4, 2008, that the data
         recorded into the Mail Condition Reporting System was accurate.

     •   Our initial observations conducted in April 2007 indicated the Chicago District
         AMS had not been updated or corrected and consequently was not accurate. In
         November 2008, management stated that accuracy of the AMS has improved.12
         This enhanced accuracy will allow better sequencing of mail and reduce carrier
         office time.




12
   As noted in Appendix E, the amount of DPS mail also increased, which also indicates that the AMS accuracy has
increased.




                                                       24
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations                          NO-AR-09-005
 in the Chicago District



                        APPENDIX G: DETAILED ANALYSIS
           CHICAGO DISTRICT’S SERVICE PERFORMANCE IN COMPARISON TO
                      NATIONAL AVERAGE SERVICE TRENDS,
                                FYs 2004 TO 200813

                                                                   Chicago                 National   Difference
                                                                                Chicago
                                            Postal      Fiscal     Ranking                 Average     Chicago
             Service Category                                                   Service
                                            Quarter      Year     Compared                 Service         to
                                                                                 Score
                                                                  to National              Scores      National
                                           Quarter 4    2008        76 of 79      95.74     96.67        -0.93
                                           Quarter 4    2007        79 of 79      93.98     96.12        -2.14
                 Overnight                 Quarter 4    2006        79 of 79      91.12     95.42        -4.30
                                           Quarter 4    2005        74 of 79      93.89     95.21        -1.32
                                           Quarter 4    2004        58 of 79      94.87     95.40        -0.53
                                           Quarter 4    2008        72 of 80      92.38     93.53        -1.15
                                           Quarter 4    2007        78 of 80      91.66     93.27        -1.61
                2- and 3-Day               Quarter 4    2006        78 of 80      83.62     90.85        -7.23
                                           Quarter 4    2005        72 of 80      88.25     90.53        -2.28
                                           Quarter 4    2004        46 of 80      91.14     91.23        -0.09
                                           Quarter 4    2008        39 of 78      94.26     94.19         0.07
                                           Quarter 4    2007        70 of 78      93.02     93.99        -0.97
                   2-Day                   Quarter 4    2006        78 of 78      85.86     91.71        -5.85
                                           Quarter 4    2005        64 of 78      90.14     91.49        -1.35
                                           Quarter 4    2004        30 of 78      92.86     91.98         0.88
                                           Quarter 4    2008        75 of 80      89.61     92.94        -3.33
                                           Quarter 4    2007        76 of 80      89.57     92.62        -3.05
                   3-Day                   Quarter 4    2006        77 of 80      80.44     90.24        -9.80
                                           Quarter 4    2005        76 of 80      85.46      89.8        -4.34
                                           Quarter 4    2004        67 of 80      88.81     90.62        -1.81




13
     Quarter 4 FY 2008 trends that are lower than the national average are highlighted in red.




                                                            25
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


           APPENDIX H: RECOMMENDATIONS MADE IN PRIOR REPORTS

Management generally agreed with the findings in the reports listed below and has
taken, or is taking, corrective action on our recommendations.

Recommendations made in the Summary Audit on the Timeliness of Mail
Processing, Transportation, and Delivery Operations in the Chicago District
(Report Number NO-AR-08-003, dated March 28, 2008)

We recommend the Vice President, Great Lakes Area Operations, ensure:

    1. The Chicago District Manager and Senior Plant Manager continue to monitor the
       processing and delivery of mail, to ensure these operations are timely.

    2. The Chicago District Manager and Senior Plant Manager conduct safety talks,
       correct potential hazards, and follow up on limited duty employees and
       unscheduled absences.

    3. The Chicago District continues to improve mail processing efficiency by reducing
       workhours by 697,245, with an associated economic impact of over $231 million
       by FY 2017.

    4. The Chicago District Manager and Senior Plant Manager continue to improve
       delivery operations efficiency by improving supervision and holding employees
       accountable.

Recommendations made in Timely City Delivery–Chicago District (Report Number
DR-AR-08-001, dated October 11, 2007)

We recommended the District Manager/Postmaster, Chicago District:

    1. Implement Delivery Standard Operating Procedures in all delivery units.

    2. Provide appropriate oversight to ensure delivery unit Standard Operating
       Procedures are in place, operating as intended, and achieving desired results.

We recommended the Vice President, Great Lakes Area:

    3. Validate that the Chicago District has implemented Delivery Standard Operating
       Procedures in all delivery units.

    4. Provide appropriate oversight to ensure the Chicago District is monitoring
       delivery unit performance.




                                                   26
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


Recommendations made in Timeliness of Mail Processing at the Chicago, Illinois
Cardiss Collins Processing and Distribution Center (Report Number NO-AR-07-
012, dated September 28, 2007)

To improve the timely processing of mail, we recommended the District
Manager/Postmaster, Chicago District, and the Senior Plant Manager, Cardiss Collins
P&DC:

    1. Monitor delayed mail on a daily basis and develop action plans, if necessary, to
       ensure the timely processing of mail.

    2. Improve supervision by ensuring that supervisors are properly trained and held
       accountable for results in their operation.

    3. Ensure that employees are held accountable by establishing performance goals,
       monitoring achievement of those goals, and rating performance based on goals.

    4. Ensure that timely and proper preventive maintenance is conducted on mail
       processing equipment.

    5. Ensure proper staffing and use of overtime in relation to workload.

    6. Ensure that proper plans are developed and followed for events that will affect
       mail processing operations, such as flat sorter refurbishment, removal of
       equipment, sort plan changes, retrofits, new equipment installations, and
       employee attrition.

    7. Develop contingency plans in the event that mail cannot be processed timely at
       the Cardiss Collins Processing and Distribution Center, including the redirection
       of the mail processing to other facilities.

    8. Provide consistent supervision.

Recommendations made in Impact of Transportation on Chicago District
Performance (Report Number NL-AR-07-008, dated September 28, 2007)

We recommended the District Manager/Postmaster, Chicago District, and the Senior
Plant Manager, Cardiss Collins Processing and Distribution Center, coordinate to:

    1. Analyze Chicago District Postal Vehicle Service (PVS) operations to identify
       excess PVS resources they can reduce and apply to other critical requirements.

    2. Improve communication and coordination between processing facilities and local
       post offices by improving local transportation planning and scheduling.




                                                   27
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


We recommended the Vice President, Great Lakes Area Operations:

    3. Require managers at the Cardiss Collins P&DC and the Chicago Bulk Mail
       Center to properly plan transportation between the two facilities and properly
       account for mail in trailers.

    4. Require managers to improve data collection by properly training and supervising
       employees on transportation systems, such as Surface Visibility.




                                                   28
Follow-Up Audit on the Timeliness of Mail Processing and Delivery Operations   NO-AR-09-005
 in the Chicago District


                        APPENDIX I: MANAGEMENT’S COMMENTS




                                                   29
